<html>
<title> - MARKUP ON H. CON. RES. 20 AND H. CON. RES. 46</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
             MARKUP ON H. CON. RES. 20 AND H. CON. RES. 46

=======================================================================

                                 MARKUP

                               BEFORE THE

                         SUBCOMMITTEE ON AFRICA

                                 OF THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                       Thursday, October 14, 1999

                               __________

                           Serial No. 106-100

                               __________

    Printed for the use of the Committee on International Relations






 Available via the World Wide Web: http://www.house.gov/international 
                               relations

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
64-473 CC                   WASHINGTON : 2000





                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT E. ANDREWS, New Jersey
DANA ROHRABACHER, California         ROBERT MENENDEZ, New Jersey
DONALD A. MANZULLO, Illinois         SHERROD BROWN, Ohio
EDWARD R. ROYCE, California          CYNTHIA A. McKINNEY, Georgia
PETER T. KING, New York              ALCEE L. HASTINGS, Florida
STEVE CHABOT, Ohio                   PAT DANNER, Missouri
MARSHALL ``MARK'' SANFORD, South     EARL F. HILLIARD, Alabama
    Carolina                         BRAD SHERMAN, California
MATT SALMON, Arizona                 ROBERT WEXLER, Florida
TOM CAMPBELL, California             STEVEN R. ROTHMAN, New Jersey
JOHN M. McHUGH, New York             JIM DAVIS, Florida
BILL LUTHER, Minnesota               EARL POMEROY, North Dakota
LINDSEY GRAHAM, South Carolina       WILLIAM D. DELAHUNT, Massachusetts
ROY BLUNT, Missouri                  GREGORY W. MEEKS, New York
KEVIN BRADY, Texas                   BARBARA LEE, California
RICHARD BURR, North Carolina         JOSEPH CROWLEY, New York
PAUL E. GILLMOR, Ohio                JOSEPH M. HOEFFEL, Pennsylvania
GEORGE P. RADANOVICH, California
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                                 ------                                

                         Subcommittee on Africa

                 EDWARD R. ROYCE, California, Chairman
AMO HOUGHTON, New York               DONALD M. PAYNE, New Jersey
STEVE CHABOT, Ohio                   ALCEE L. HASTINGS, Florida
TOM CAMPBELL, California             GREGORY W. MEEKS, New York
GEORGE RADANOVICH, California        BARBARA LEE, California
THOMAS G. TANCREDO, Colorado
                Tom Sheehy, Subcommittee Staff Director
               Malik M. Chaka, Professional Staff Member
        Charisse Glassman, Democratic Professional Staff Member
                 Charmaine V. Houseman, Staff Associate



                            C O N T E N T S

                              ----------                              
                                                                   Page

                              LEGISLATION

H. Con. Res. 46, Urging an end of the war between Eritrean and 
  Ethiopia and calling on the United Nations Human Rights 
  Commission and other Human Rights Organizations to investigate 
  human rights abuses in connection with the Eritrean and 
  Ethiopian conflict.............................................     6
H. Con. Res. 20, concerning economic humanitarian, and other 
  assistance to the Northern part of Somalia.....................    10

                                APPENDIX

The Honorable Alcee Hastings.....................................    13




             MARKUP ON H. CON. RES. 20 AND H. CON. RES. 46

                              ----------                              


                       Thursday, October 14, 1999

                  House of Representatives,
                            Subcommittee on Africa,
                      Committee on International Relations,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 1:30 p.m., in 
room 2200, Rayburn House Office Building, Hon. Edward R. Royce 
(Chairman of the Subcommittee) presiding.
    Mr. Royce. [presiding] The Subcommittee on Africa will now 
come to order to mark up two resolutions.
    We will now consider House Concurrent Resolution 20, a 
resolution concerning economic humanitarian and other 
assistance to Somalia. The Chair lays the resolution before the 
Committee. The clerk will report the title of the resolution.
    The Clerk. ``H. Con. Res. 20, concerning economic 
humanitarian----''
    Mr. Royce. Without objection, the clerk will read the 
preamble and operative language of the resolution for 
amendment.
    The Clerk. ``Whereas, in the area of the northern part of 
Somalia----''
    Mr. Royce. Without objection, the resolution is considered 
as having been read and is open to amendment at any point.
    [The information referred to appears in the appendix.]
    Mr. Royce. Now, this resolution was introduced on February 
2 and referred by Chairman Gilman to this Subcommittee. It 
draws much needed attention to Somalia, which has ceased to 
exist as a nation. As a result of fighting between factions led 
by self-serving war lords, there is no nation state left in 
Somalia today.
    This resolution recognizes that the northern part of 
Somalia has achieved a significant level of economic and social 
stability. This should be commended. The resolution, however, 
should not be construed as calling for diplomatic recognition 
of Somalia-land. In fact, the resolution calls for all Somali 
parties to work with the international community to achieve, 
quote, ``a permanent end to the civil strife there in the 
adoption of a permanent governmental structure most conducive 
to the well-being and basic human rights of all Somali 
people.''
    I would like to commend Mr. Campbell for authoring and Mr. 
Payne, the Ranking Member, for co-sponsoring the resolution.
    Do any Members seek recognition to discuss the resolution?
    Mr. Campbell. Mr. Chairman?
    Mr. Royce. Mr. Campbell of California.
    Mr. Campbell. Mr. Chairman, thank you for your kind words. 
You have accurately and forcefully described the purpose of the 
legislation. I am proud that Congressman Payne agreed to be the 
original co-sponsor. I would emphasize that this is not all 
that some want. It is not a recognition of a new country. I 
recognize under our Constitution that the President to the 
United States has the authority to recognize countries.
    What it is, is a request that for the sake of the 
humanitarian goals of assistance, that we should not hold that 
assistance back from people capable of using it because 
conditions over which they have no control have not yet 
ripened.
    With that, and in view of the pending vote on the floor, 
Mr. Chairman, I yield back. Thank you for scheduling this 
hearing.
    Mr. Royce. Thank you, Mr. Campbell.
    Are there any other Members seeking recognition?
    If not, the gentleman from California, Mr. Campbell, is 
recognized to offer a motion.
    Mr. Campbell. Mr. Chairman, I move that the Subcommittee 
report H. Con. Res 20, as amended--I believe it has been 
amended--but let me say, if amended--if that is appropriate to 
say--that I move this Subcommittee report H. Con. Res 20 
favorably to the Full Committee.
    Mr. Royce. Without objection, the motion is agreed to.
    Let us call the roll if we can.
    The question is on the motion of the gentleman from 
California.
    All those in favor of the motion say aye.
    All those opposed say no.
    The ayes have it. That motion is agreed to.
    Mr. Campbell. Excuse me. Do you think we should go to the 
second resolution now or do you want to wait?
    Mr. Hastings. Mr. Chairman, let us try to finish.
    Mr. Campbell. Let us do it.
    Mr. Royce. OK. We will now consider House Concurrent 
Resolution 46, urging the end of the war between Eritrean and 
Ethiopia and calling on the United Nations Human Rights 
Commission and other human rights organizations to investigate 
human rights abuses in connection with the Eritrean and 
Ethiopian conflict concerning economic, humanitarian, and other 
assistance.
    The Chair lays the resolution before the Committee. The 
clerk will report the title of the resolution.
    The Clerk. ``H. Con. Res. 46, urging an end to the war 
between Eritrean and Ethiopia and calling on the United Nations 
Human Rights Commission and other human rights organizations to 
investigate human rights abuses in connection with the Eritrean 
and Ethiopian conflict.''
    Mr. Royce. Thank you, and, without objection, the clerk 
will read the preamble and operative language.
    The Clerk. ``Whereas, peace and stability----''
    Mr. Royce. Without objection, the resolution is considered 
as having been read and is open to amendment at any point.
    Mr. Royce. Just to brief, this resolution was introduced on 
March 9 and referred to this Subcommittee. It urges an end to 
the 17-month long war between Eritrean and Ethiopia that has 
resulted in the loss of more than 70,000 to date and calls for 
the investigation of human rights abuses in connection with the 
conflict.
    Hopefully, this resolution will help to bring home to both 
sides of the conflict that Congress has lost patience with the 
intransigence that keeps a war going that neither side can 
afford. It recognizes the OAU framework, which both sides claim 
to accept, and provides an equitable basis to end the 
devastating conflict. I would like to commend the author, Mr. 
Campbell for this resolution.
    Do any Members seek recognition?
    Mr. Campbell. Mr. Chairman?
    Mr. Royce. Mr. Campbell.
    Mr. Campbell. I am honored to have my good friend, 
Congressman Payne, as original co-sponsor and my good friend, 
Congressman Chabot. I think, however, that it is a point of 
view what we all share.
    Personal note: My heart is broken over this fight. I have 
said so publicly. My wife and I spent Thanksgiving in Eritrea 
and then in Ethiopia 2 years ago. We love the people of both 
countries. They should not be at war.
    Not only are they at war, Mr. Chairman, but they are 
engaging in human rights abuses of the most serious kind, which 
have come to light during the war. It is only because of a 
desire of diplomacy that I do not like going into much more 
pointed accusations, which I would perhaps go into; in fact, I 
might even at some point very soon.
    Mr. Royce. Perhaps on the floor.
    Mr. Campbell. I would say we are tempted to. This war 
should not happen, and the people should not be killing each 
other in the manner that they are. There are human rights 
abuses in connection with deportation, in connection with the 
way the war is conducted, in connection with the manner in 
which lives are being lost.
    Mr. Chairman, because you care so deeply, how hard it is to 
get colleagues' attention to Africa. When something like this 
happens, the natural reaction is ``Well, there they go again.''
    If Americans had taken this attitude about World War I, 
they would have said, ``Well, there go those Europeans fighting 
each other again.'' Or the second world war, as well, and yet 
when people say that about Africa, it seems to pass without 
challenge. So, that is the harm that has come from this war.
    At risk of making a diplomatic breech, I shall be silent 
and simply say this one matters to me immensely. I am grateful 
that you scheduled it for markup, and I yield back the balance 
of my time.
    Mr. Royce. We thank you, Mr. Campbell.
    Mr. Hastings. Mr. Chairman?
    Mr. Royce. Mr. Hastings.
    Mr. Hastings. Mr. Chairman, I would just like to echo the 
remarks of my distinguished colleague from California, but, 
more importantly, in light of the fact that he is not here to 
say for the record what I know all of the Members of this 
Committee know and that is that Donald Payne has spent an 
extraordinary amount of time, and we all appreciate very much 
his not only being a co-sponsor here but his continuing urging 
of parties to continue to engage in actions that will decrease 
tensions and bring about a quick and peaceful resolution of 
this conflict. I join in that, and the statement that I had for 
the record, Mr. Chairman, I would ask permission to revise and 
extend and include that statement.
    Mr. Royce. We will do that, Mr. Hastings.
    Mr. Chabot.
    Mr. Chabot. Thank you, and I will be very brief. I would 
like to join my colleagues. I am an original co-sponsor of this 
resolution, and we had an opportunity to meet with 
representatives of the Eritreans and the Ethiopians on numerous 
occasions, and, as Mr. Campbell said, one just can't help but 
just shake their head about this. All wars are tragic. This is 
a war that is particularly tragic and really pointless, and 
these parties should not be fighting. One can never afford a 
war, so they--and they certainly can't afford this one--and I 
hope that this does some good, but it gets very frustrating.
    Yield back.
    Mr. Royce. Thank you. There being no other further debate 
on this issue, I will recognize the gentleman from California 
for a motion.
    Mr. Campbell. Mr. Chairman, I move the Subcommittee report 
H. Con. Res. 46 favorably to the Full Committee.
    Mr. Royce. Without objection, the motion is agreed to.
    The question is on the motion, and all those in favor say 
aye.
    Opposed say no.
    The ayes have it. The motion is agreed to.
    This markup session is adjourned, and we are adjourned 
until after the vote at which point we will come back for our 
hearing on the United States South Africa Relations: Present 
and Future.
    So we will return in 15 minutes.
    [Whereupon, at 1:46 p.m., the Subcommittee recessed, and 
proceeded to other business at 2 p.m.]
      
=======================================================================




                            A P P E N D I X

                            October 14, 1999

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T4473.001
    
    [GRAPHIC] [TIFF OMITTED] T4473.002
    
    [GRAPHIC] [TIFF OMITTED] T4473.003
    
    [GRAPHIC] [TIFF OMITTED] T4473.004
    
    [GRAPHIC] [TIFF OMITTED] T4473.005
    
    [GRAPHIC] [TIFF OMITTED] T4473.006
    
    [GRAPHIC] [TIFF OMITTED] T4473.007
    
    [GRAPHIC] [TIFF OMITTED] T4473.008
    

</pre></body></html>
